APPENDIX

App. 1
APPENDIX – LIST OF SIGNATORIES1
Jennifer S. Bard, PhD, JD, MPH
Visiting Professor of Law
University of Florida Levin College of Law
Leo Beletsky, JD, MPH
Professor of Law and Health Sciences
Faculty Director, Health in Justice Lab
Northeastern University School of Law
Scott Burris, JD
Professor of Law
Director, Center for Public Health Law Research
Temple University Beasley School of Law
Kathy L. Cerminara, JD, LLM, JSD
Professor of Law
Shepard Broad College of Law
Nova Southeastern University
Elizabeth Chiarello, PhD
Associate Professor of Sociology & secondary
appointment in law
Saint Louis University
Doron Dorfman, JSD, JSM, LLM
Associate Professor of Law
Syracuse University College of Law
Taleed El-Sabawi, JD, PhD
Assistant Professor of Law
Elon University School of Law

1

Institutions are listed for afﬁliation purposes only. All signatories are participating in their individual capacity and not on
behalf of their institutions.

App. 2
Deborah Farringer, JD
Associate Dean for Academic Affairs
Associate Professor of Law
Director of Health Law Studies
Belmont University College of Law
Linda C. Fentiman, JD, LLM
Professor of Law Emerita
Elizabeth Haub School of Law
Pace University
Nita Ghei, JD, PhD
Adjunct Professor
George Washington University
Daniel S. Goldberg, PhD, JD
Associate Professor
Center for Bioethics and Humanities
University of Colorado Anschutz Medical Campus
Deborah Hellman, JD, MA
David Lurton Massee, Jr., Professor of Law
University of Virginia School of Law
Diane E. Hoffmann, JD
Jacob A. France Professor of Health Law
University of Maryland Carey School of Law
Alia Hoss, JD
Assistant Professor of Law
University of Tulsa College of Law
John Jacobi, JD
Dorothea Dix Professor of Health Law & Policy
Seton Hall University School of Law

App. 3
Sandra H. Johnson, JD, LLM
Professor Emerita of Law and Health Care Ethics
Center for Health Law Studies
Saint Louis University School of Law
Seema Mohapatra, JD, MPH
Associate Professor of Law and Dean’s Fellow
Indiana University Robert H. McKinney School of Law
Wendy E. Parmet, JD
Matthews University Distinguished Professor of
Law and Professor of Public Policy and Urban Affairs
Center for Health Policy and Law
Northeastern University
Elizabeth Pendo, JD
Joseph J. Simeone Professor of Law
Center for Health Law Studies
Saint Louis University School of Law
Ross D. Silverman, JD, MPH
Professor of Health Policy & Management
Indiana University Fairbanks School of Public Health
Professor of Public Health & Law
Indiana University McKinney School of Law
Michael S. Sinha, MD, JD, MPH
Adjunct Faculty
Center for Health Law and Policy
Northeastern University School of Law
Research Fellow
Harvard-MIT Center for Regulatory Science
Harvard Medical School

App. 4
Stacey A. Tovino, JD, PhD
Professor of Law
Faculty Lead, Healthcare Law Programs
University of Oklahoma College of Law
Heather Walter-McCabe, JD, MSW
Associate Professor
Wayne State University School of Social Work
&Wayne State University School of Law
Stephen Ziegler, PhD, JD
Professor Emeritus
Purdue University

